       SIGAR                                                       Special Inspector General for
                                                                    Afghanistan Reconstruction




                                                                                   SIGAR Audit 13-4


         AFGHAN NATIONAL ARMY: CONTROLS OVER
         FUEL FOR VEHICLES, GENERATORS, AND
         POWER PLANTS NEED STRENGTHENING TO
         PREVENT FRAUD, WASTE, AND ABUSE




                                                                                      J A NU A RY
                                                                                     2013
SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability
SIGAR
                                                            January 2013
                                                            AFGHAN NATIONAL ARMY: CONTROLS OVER FUEL FOR VEHICLES,
                                                            GENERATORS, AND POWER PLANTS NEED STRENGTHENING TO
                                                            PREVENT FRAUD, WASTE, AND ABUSE


Special Inspector General for                               SIGAR AUDIT 13-4

Afghanistan Reconstruction
WHAT SIGAR REVIEWED                                         WHAT SIGAR FOUND
Since 2005, Congress has appropriated                       CSTC-A lacked sufficient accountability in the process
more than $50 billion to train, equip, and                  used to order, receive, and pay for POL for ANA vehicles,
sustain the Afghan National Security Forces                 generators, and power plants. This lack of
(ANSF), which include the Afghan National                   accountability increases the risk that U.S. funds and
Army (ANA) and Afghan National Police. The                  fuel will be stolen. Specifically, SIGAR found that
NATO Training Mission-Afghanistan/
                                                                •    CSTC-A records relating to fuel purchases paid
Combined Security Transition Command-
                                                                     for between March 2010 to February 2011 were
Afghanistan (CSTC-A) has primary
                                                                     missing;
responsibility for purchasing ANA’s
petroleum, oil, and lubricants (POL) and                        •    CSTC-A’s data on fuel purchases covering the
works with top-level (above-Corp) ANA and                            period March 2011 to March 2012, was
Ministry of Defense (MOD) officials. The                             inaccurate and incomplete; and
International Security Assistance Force Joint                   •    CSTC-A could not account for fuel that was
Command provides oversight and                                       spilled or lost.
assistance to operational and tactical
                                                            In addition, CSTC-A’s processes for price approval,
commands. The MOD is responsible for
                                                            ordering, receipt, delivery and payment of fuel were
requesting, distributing and accounting for
                                                            beset by major vulnerabilities. For example:
ANA fuel.
This report assesses (1) internal controls to                   •    CSTC-A approved payments for fuel without
account for ANA POL and prevent fraud,                               verifying vendors’ statements that they had
waste, and abuse; (2) whether funding                                made deliveries in full and of acceptable quality.
requests for ANA POL were based on                              •    CSTC-A fuel orders were not based on required
accurate data; and (3) CSTC- A’s efforts to
ensure the MOD has sufficient capacity to
manage the purchase, delivery, storage,
and consumption of ANA POL following the
drawdown of U.S. and coalition forces by
the end of 2014. SIGAR obtained data and
met with officials from the International
Security Assistance Force, CSTC-A, Task
Force 2010, the Department of Defense
Inspector General, U.S. Army Audit Agency,
and the Defense Logistics Agency. This
report builds on a September 2012 interim
report and alert letter. SIGAR conducted
this work in Kabul, Afghanistan from
February 2012 to January 2013 in
accordance with generally accepted
government auditing standards.

                                                              ANA 2,700 liter (700 gallons) fuel truck at Pol-e-Charkhi on May 23,
                                                              2012.


       For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
        consumption data and, for power
                                                              Estimated Current and Anticipated Annual
        plants, the fuel orders did not follow
                                                                   ANA POL Funding Requirements
        the authorized process.
                                                                          (in million USD)
Second, SIGAR found that CSTC-A based its
estimates for funding on unsupported data,
which potentially overstates actual
requirements. The approximately $2.8
billion that CSTC-A estimates will be
necessary to fund purchases of ANA POL
between fiscal years 2014 and 2018 are
based on questionable calculations. In
addition, SIGAR estimates that CSTC-A
should have more than $266 million of
fiscal year 2012 funds still available to
purchase fuel in fiscal year 2013.
Lastly, despite concerns about ANA’s
capacity to purchase fuel, CSTC-A plans to
directly contribute more than $1 billion in
U.S. funds to the Afghan government to
purchase ANA fuel over the next 6 years.
CSTC-A’s assessments of MOD’s capacity,
coupled with SIGAR and the Army Audit
Agency reports, have questioned whether
MOD can adequately serve as a steward of
public resources.



                                                            Source: Afghanistan Security Forces Fund enacted
                                                            amount for fiscal year 2012, CSTC-A request for fiscal
                                                            year 2013, and CSTC-A estimates for fiscal years 2014.




 WHAT SIGAR RECOMMENDS
 SIGAR makes six recommendations to the Commander, NTM-A/CSTC-A. Specifically,
 SIGAR recommends three actions to improve accountability of U.S. funds and
 purchased fuel through full compliance with required MOD logistics processes; two
 actions to develop more realistic fuel budget requests and future year funding
 estimates, with the potential for realizing substantial savings immediately and in the
 future; and one action to assure proper stewardship and transparency of U.S. funds
 and fuel purchases when fuel management responsibility is transferred to the MOD.
 CSTC-A generally concurred with the recommendations and provided comments,
 which are reproduced in this report.




For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
January 24, 2013


The Honorable Leon E. Panetta
Secretary of Defense

General James N. Mattis
Commander, U.S. Central Command

General John R. Allen
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General Daniel P. Bolger
Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan


This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) audit of the Afghan National Army’s (ANA) logistics capability for
petroleum, oil, and lubricants. This report also expands on the issues discussed in our interim
report (SIGAR 12-14) and alert letter (SIGAR Alert Letter 12-2), issued September 10, 2012.
This report includes six recommendations to the Commanding General, CSTC-A, designed to
improve the fuel purchasing process.
When preparing the final report, we considered comments from CSTC-A, which are reproduced
in appendix III along with SIGAR’s responses to them. CSTC-A and U.S. Army Central generally
concurred with all six recommendations. SIGAR conducted this audit under the authority of
Public Law No. 110-181, as amended, the Inspector General Act of 1978, and the Inspector
General Reform Act of 2008 and in accordance with generally accepted government auditing
standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                           TABLE OF CONTENTS


Background ........................................................................................................................................................... 3

Weaknesses in ANA Fuel Ordering, Delivery, and Payment Processes Increase Risk of Fraud, Waste, and Abuse
    ...................................................................................................................................................................... 5
CSTC-A’s Estimates For Funding Are Based on Unsupported Data and Potentially Overstated ......................... 11
Despite Concerns about ANA’s Capacity to Purchase Fuel, CSTC-A Intends to Provide the Afghan Government
    with $1 Billion in Direct Funding ................................................................................................................ 12
Conclusion.......................................................................................................................................................... 13
Recommendations ............................................................................................................................................. 13
Agency Comments .............................................................................................................................................. 14
Appendix I - Scope and Methodology.................................................................................................................. 15
Appendix II - Additional Audit Information........................................................................................................... 17
Appendix III - Comments from the Combined Security Transition Command-Afghanistan ................................. 20
Appendix IV - Comments from U.S. Army Central................................................................................................ 29
Appendix V - Acknowledgments .......................................................................................................................... 31


TABLES

Table 1 - SIGAR Summary of Reported Potential Fuel Theft Incidents .................................................................. 8
Table I - Results of Internal Control Tests ........................................................................................................... 17
Table II - Summary of Annual Afghanistan Security Forces Fund ANA Fuel Budget and Financial Data for Fiscal
     Years 2007-2018 (in millions) ................................................................................................................... 19


FIGURES

Figure 1 - Annual Afghanistan Security Forces Fund and Other Funding for ANA POL (in million USD) ................. 4
Figure 2 - Percentage of Requested Documents Provided for 150 Fuel Orders between March 2011 and March
     2012, by Form............................................................................................................................................... 6
Figure 3 - Example of One Vendor’s Average Fuel Price for April 2012 ................................................................. 9
Figure 4 - ANA Fuel Ordering Process ................................................................................................................. 10
Figure I - Timeline of ANA Fuel Documentation and Key Audit Events................................................................ 18




SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability                                                                                  Page i
ABBREVIATIONS & ACRONYMS

             ANA                            Afghan National Army
             ANSF                           Afghan National Security Forces
             CSTC-A                         Combined Security Transition Command-Afghanistan

             DOD                            Department of Defense
             MMC-A                          Material Management Center-Army
             MOD                            Ministry of Defense

             POL                            petroleum, oil, and lubricants
             SIGAR                          Special Inspector General for Afghanistan Reconstruction




SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability                      Page ii
The Combined Security Transition Command-Afghanistan (CSTC-A)1 is responsible for equipping and training
the Afghan National Army (ANA) through the Afghanistan Security Forces Fund. This fund was created by
Congress to provide the Afghan National Security Forces (ANSF) with equipment, supplies, services, and
training, as well as facility and infrastructure repair, renovation, and construction.
The Department of Defense (DOD) Inspector General reported significant concerns with the logistical readiness
of the ANA, and other U.S. government audits and investigative units have cited significant concerns with the
purchase of fuel for ANSF and Coalition Forces across Afghanistan. Specifically, in December 2011, the DOD
Inspector General assessed that U.S. and coalition efforts to develop sustainable ANA logistics had been
deficient in several areas including, among other things, fuel accountability and management internal
controls. 2
In September 2012, SIGAR issued an interim report on ANA petroleum, oil, and lubricants (POL) that addressed
concerns on the impending transition of fuel responsibilities and funds to the Afghan government beginning
January 1, 2013. 3 Specifically, we found that
    •    CSTC-A does not have a valid method to estimate fuel requirements, and proposed ANA POL funding
         amounts are not supported by a systematic process to determine actual fuel needs; and
    •    CSTC-A has not addressed compliance and accountability challenges within the entire ANA fuel
         process.
Also in September 2012, we issued an alert letter addressing the possible destruction of financial documents
from ANA POL purchases. 4 The letter discussed the alleged shredding of ANA POL payment records totaling
nearly $475 million from October 2006 to February 2011. Subsequently, CSTC-A officials stated that a
portion of these payment records—dating from March 2010 through February 2011—were actually converted
to electronic media but, as of December 2012, CSTC-A had not located the electronic copies. We also
conducted a separate investigation into the alleged document shredding and confirmed that two CSTC-A fuel
ordering officers had shredded fuel records for the period of March 2010 through February 2011, citing
efficiency and saving physical storage space as factors in deciding to scan and shred the documents. Although
we found no evidence of criminal activity, we noted that the failure to retain these records violated certain
federal regulations and DOD orders. 5
This audit, which builds on our earlier interim report and alert letter, assesses U.S. efforts to develop ANA’s
capability to acquire, distribute, and account for POL supplies to its forces. Specifically, this audit assesses
    •    the internal controls in place to provide accountability for ANA POL and to prevent fraud, waste, and
         abuse;
    •    the extent to which CSTC-A’s funding requests for ANA POL are based on accurate requirements data;
         and
    •    CSTC-A’s efforts to ensure the Afghan Ministry of Defense (MOD) has sufficient capacity to manage the
         purchase, delivery, storage, and consumption of ANA POL following the drawdown of U.S. and coalition
         forces by the end of 2014.



1 CSTC-A is a joint command with the NATO Training Mission-Afghanistan. Because CSTC-A distributes and manages all
U.S. funding to support the ANSF, this report refers to CSTC-A.
2 DOD IG Special Plans and Operations: Assessment of U.S. Government and Coalition Efforts to Develop the Logistics
Sustainment Capability of the Afghan National Army, dated December 9, 2011 (Report No. DODIG-2012-028).
3 Interim Report on Afghan National Army Petroleum, Oil, and Lubricants, dated September 10, 2012 (SIGAR 12-14).

4 “Destruction of Operation Enduring Freedom Financial Documents Related to ANA POL Audit,” dated September 10, 2012
(SIGAR Alert Letter 12-2).
5 Afghan National Army: $201 Million in DOD Fuel Purchases Still Unaccounted For because Records Were Shredded,
December 20, 2012 (SIGAR Investigative Report 13-1).



SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                                  Page 2
To accomplish our objectives, we reviewed relevant MOD guidance and financial and fuel-related
documentation and interviewed officials at the International Security Assistance Force, CSTC-A, DOD Inspector
General, U.S. Army Audit Agency, Defense Logistics Agency, and Task Force 2010. 6 We reviewed a sample of
ANA paid fuel orders for the 13-month period from March 2011 to March 2012. We conducted our work in
Kabul, Afghanistan from February to December 2012, in accordance with generally accepted government
auditing standards. A more detailed discussion of our scope and methodology is in appendix I.


BACKGROUND

Since 2005, Congress has appropriated almost $50.7 billion to the Afghanistan Security Forces Fund to train,
equip and sustain the ANSF, which include the ANA and the Afghan National Police. The appropriation includes
funding for diesel, aviation, and packaged fuels, which CSTC-A purchases for the ANA.
Since 2007, CSTC-A has established and managed 10 blanket purchase agreements with vendors to provide
fuel. In April 2012, CSTC-A noted that vendors delivered fuel to 754 ANSF fuel locations throughout
Afghanistan, of which 254 were ANA facilities, including: two national depots in Kabul, six Regional Logistic
Support Centers, and 26 power plants. Once vendors deliver CSTC-A-ordered fuel, the ANA is responsible for
the allocation, storage, and consumption of all fuel intended for vehicles, generators, and power plants. CSTC-
A and the International Security Assistance Force Joint Command provide limited oversight and accountability
of fuel. CSTC-A works with ANA national and regional (above-Corps) levels and the Joint Command with Corps
and below-Corps ANA units; the Joint Command also provides oversight and assistance to operational and
tactical commands. Although CSTC-A manages blanket purchase agreements, Kabul Regional Contracting
Center―within CENTCOM-Joint Theater Support Contracting Command―approves and issues the agreements.
In April 2009, CSTC-A created a checkbook―in Microsoft Access―to record details of fuel orders received from
ANA units and power plants. Checkbook entries by fuel ordering officers include delivery location, order
number, point of contact, type of fuel, invoice number, and other detailed information related to each order
received. CSTC-A stated the fiscal year 2013 budget request and its estimates for fiscal years 2014-2018 are
based on the prior years’ fuel orders in the checkbook.

Funding for the Afghan National Army’s Petroleum, Oil, and Lubricants

Congress authorizes CSTC-A to use a portion of Afghanistan Security Forces Funds for the purchase of fuel for
ANA vehicles, generators, and power plants. During fiscal years 2007 through 2012, DOD received more than
$1.1 billion in Afghanistan Security Forces Fund assistance for POL, including $429 million in fiscal year 2012
alone. For fiscal year 2013, DOD has requested $343 million to fund ANA POL, with$123 million (for jet fuel
and kerosene) expected to be provided by international donors. 7
For fiscal years 2014 through 2018, CSTC-A proposes to increase the Afghanistan Security Forces Fund portion
of the ANA POL budget to $555 million. Starting in 2013, CSTC-A plans to provide one-third of this funding
directly to the Afghan government for it to purchase POL for the ANA itself. 8 Figure 1 provides a breakdown of



6Task Force 2010 provides commanders and acquisition teams with situational understanding regarding the flow of
contract funds and property losses and recommends actions to deny power brokers, criminal networks, and insurgents the
opportunity to benefit from the stolen property or illicit revenue.
7   DOD funded jet fuel and kerosene at $123 million for fiscal year 2012.
8 On June 13, 2012, CSTC-A introduced its plan to begin directing two-thirds of its funding from the Afghanistan Security
Forces Fund to the Afghan government starting January 1, 2013. However, at the initial Bulk Fuel Transition Executive
Committee meeting on September 12, 2012, CSTC-A proposed a change in direct contributions. Instead of providing two-
thirds of the funds directly to the Afghan government, only one-third will initially be provided in direct funding with a
proposed earliest starting date of March 2013.



SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                                    Page 3
annual ANA POL amounts received between fiscal years 2007 and 2012, requested for fiscal year 2013, and
estimated for fiscal years 2014-2018.



Figure 1 - Annual Afghanistan Security Forces Fund and Other Funding for ANA POL (in million USD)




Source: Afghanistan Security Forces Fund section of annual Army fiscal year budget justifications, with enacted amounts
through fiscal year 2012, requested for fiscal year 2013, and estimated for fiscal years 2014-18.


Ministry of Defense Logistics and Fuel Decrees

MOD issued decrees on procedures for ANA logistical operations, including POL. Additionally, the MOD Tashkil
is the master ANA document listing authorized numbers of ANA personnel and equipment in military units
throughout Afghanistan. MOD decrees serve as the basis for logistics regulations in Afghanistan and regulate
policy and support procedures, materiel accountability, and POL management. The required processes and
forms specified in MOD Decree 4.6 are intended to maintain accurate records of fuel orders, issues and
receipts throughout the POL procurement process. The MOD has issued three decrees that specify policies,
procedures, and forms to be used for ANA POL logistics operations:
Decree 4.0, Supported and Supporting Unit Logistics Policy and Support Procedures establishes ANA logistics
procedures, formats, and forms to be used.
Decree 4.2, Materiel Accountability Policy and Procedures outlines accountability policies and procedures for
all categories of materiel, equipment and supplies, and real property.
Decree 4.6, ANA POL Section Organization, Responsibilities, and Procedure describes the organization,
responsibilities, and procedures for ANA POL activities. Four of the key MOD forms required by this decree are
listed below:
    •    MOD Form 14―Materiel Request Form (used to request fuel);



SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                                    Page 4
       •   MOD Form 8―Materiel Receiving Report (used as a fuel receipt form at national and regional ANA
           depots. The form includes documentation of fuel quantity delivered);
       •   MOD Form 9―ANA Issue and Turn-In Document (used for fuel issue to ANA non-depot locations from
           ANA depots. The form includes documentation of quantity of fuel delivered); and
       •   MOD Form 32―Monthly Fuel Consumption Report, which consolidates daily receipt and consumption
           from (a) inventory reconciliation forms (MOD Form 1235 and 1237) and (b) vehicle fuel point issue
           document (MOD Form 3643), and compares monthly beginning and ending fuel balances to physical
           inventory to indicate variances.
MOD Decree 4.6 requires ANA units to request fuel based on documented consumption using MOD forms 14
and 32. ANA units are required to send requests to the Regional Logistics Support Command, which will then
submit the request to Material Management Center-Army (MMC-A), the command and control center for the
MOD Logistics Command. MMC-A approves and validates fuel requests, including checking against the unit’s
authorized fuel allocation9 and accompanied by a MOD Form 32. Once MMC-A approves a request, MMC-A
sends the fuel request to national depots to fill the order or submits it to CSTC-A to order from vendors.
However, as discussed in the report, requests are sent directly to CSTC-A, circumventing the MMC-A process,
with CSTC-A purchasing the fuel for vendors to deliver to the requesting ANA location without MMC-A approval.

Transitioning Responsibility for Afghan National Army Logistics to the Ministry of Defense

CSTC-A is coordinating with the MOD to equip the ANSF, build the logistics system, and train logisticians,
including POL. CSTC-A intends to build the MOD capacity to assume responsibility for all national logistics and
maintenance, including ANA POL. CSTC-A plans to begin contributing funds directly to the MOD for the
purchase of ANA POL as early as March 2013. To improve accountability over ANA POL, CSTC-A revised one
blanket purchase agreement to implement the use of seals to provide evidence of any tampering of fuel
deliveries, require the use of flow meters, and clarify that responsibility for equipment for tests rests with
receiving entity. CSTC-A also plans to, among other things, reduce the number of ANSF fuel delivery sites from
754 to 98, from which fuel will be further distributed throughout Afghanistan.


WEAKNESSES IN ANA FUEL ORDERING, DELIVERY, AND PAYMENT PROCESSES
INCREASE RISK OF FRAUD, WASTE, AND ABUSE

CSTC-A’s Data on Fuel Orders is Inaccurate and Incomplete
CSTC-A’s checkbook, a database of fuel records starting in April 2009, contains data on fuel order numbers
and dates, delivery dates, quantities, prices, and invoice numbers. However, we found that the checkbook had
errors, including fuel delivery dates that pre-dated corresponding fuel orders, duplicate entries, and missing
data fields.
To test the checkbook’s completeness and accuracy, we randomly selected 150 out of 2,922 fuel orders paid
over a 13-month period from March 2011 through March 2012. The 150 orders totaled $13.9 million out of
the total $238 million in paid fuel orders that occurred between these dates. For these 150 orders, we
requested the full set of supporting documentation, which should have included 8 supporting MOD, DOD, and
vendor forms and documents for each order, totaling approximately 1,200 documents. Prior to our interim
report in September 2012, we received partial documentation for about half of the 150 fuel orders in our
sample and no documentation for the remaining orders. Following our interim report and our September 13,
2012 testimony, CSTC-A provided us with partial documentation for nearly all remaining fuel orders.



9   Requests are checked to ensure that they do not exceed a unit’s authorized fuel allocation by more than 10 percent.



SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                                      Page 5
In our review of these 150 fuel orders, we found
    •    681 problems―or exceptions―within the documentation. Exceptions include, among other things,
         delivery tickets that were not signed by ANA recipients or delivery drivers, fuel orders not signed by
         MMC-A, or no ANA documentation of fuel quality or quantity reported by vendors;
    •    missing delivery tickets―which are required by the blanket purchase agreements to support quantities
         of fuel specified on paid invoices―for 32 orders;
    •    missing invoices for 2 orders; and
    •    missing DD 250 forms (DOD’s Material Inspection and Receiving Report, which documents, among
         other things, DOD acknowledgement of receipt of material) for 3 orders.
In total, CSTC-A could only provide the complete set of documents for 4 of the 150 orders. Of the remaining
146 orders, we found incomplete documentation (for example, a missing MOD form) and exceptions in the
provided documentation (for example, a missing signature). Figure 2 illustrates, by percentage, the presence
of each form required to be in a full set of documentation in our sample of 150 fuel orders.

Figure 2 - Percentage of Requested Documents Provided for 150 Fuel Orders between March 2011 and
March 2012, by Form.




Source: SIGAR analysis of documentation provided for 150 fuel orders.

Furthermore, CSTC-A failed to reconcile checkbook-recorded orders with payments to vendors made by
Defense Finance and Accounting Services, which maintains DOD’s financial management systems and its
accounting operations. Standards for Internal Control in the Federal Government state that periodic




SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                          Page 6
comparison of resources with the recorded accountability—such as invoices and other documentation—should
be made to help reduce the risk of errors, fraud, misuse, or unauthorized alteration. 10 CSTC-A officials were
not reconciling any orders or payments for the 13-month period until June 2012, 4 months into SIGAR’s audit.
CSTC-A did not enforce reconciliation standards and has not established standard operating procedures for
fuel ordering officers to follow. Such guidance would have assisted in reducing missing information within the
checkbook as well as helped ensure that orders, invoices, and payments were consistent. Our review of the
checkbook also found incomplete transactions. For example, we identified 1,147 fuel orders with missing
invoice numbers totaling $36 million. As a result, information within the checkbook is incomplete, increasing
the risk that funds and purchased fuel have been subject to fraud, waste, and abuse.

CSTC-A Lacks 12 Months of Fuel and Payment Records
In our September 2012 alert letter, we stated that CSTC‐A did not have any records of fuel purchase and
payment information prior to March 2011 because, according to CSTC‐A, all ANA POL financial records totaling
nearly $475 million from fiscal year 2007 through February 2011 had been shredded in violation of DOD and
Department of the Army policies. Federal internal control standards state that all documentation and records
should be properly managed, maintained, and be readily available for examination. 11 In addition, the DOD
Financial Management Regulation states that all original disbursing office records and associated papers as
well as supporting documentation should be kept for 6 years and 3 months, consistent with the National
Archives and Records Administration General Records Schedule 6. 12 Subsequent to our September 2012 alert
letter, CSTC-A made available ANA POL financial records from fiscal year 2007 to February 2010. However,
paid fuel records from March 2010 through February 2011 remain missing. The previous CSTC-A fuel ordering
officers stated these records were shredded after converting the original hard copies to electronic media. To
date, however, CSTC-A has not located the electronic copies.

CSTC-A Has No Records of Spilled or Lost Fuel
CSTC-A does not monitor whether fuel it purchased for the ANA is stolen or lost to spillage or mishaps.
According to MOD guidance, safeguards must be in place to defend against theft. Furthermore, ANA units are
required to control spills through a prevention program and report any spillage to the MOD.
We found, however, that although CSTC-A was notified of three potential theft cases, the fuel ordering officer
did not have a clear path forward to resolve cases. For example, a fuel ordering officer reported to CSTC-A, the
U.S. Army Corps of Engineers, and Task Force 2010 that fuel ordered for the two power plants was not being
received (see table 1). The CSTC-A fuel ordering officer did not have clear guidance on how to address
allegations, and there was no evidence of actions taken to investigate or resolve the incidents by identifying
losses or fraudulent activity. Further, ANA units did not prepare spillage and mishap reports, so CSTC-A could
not investigate potential discrepancies. As a result, accountability for fuel after purchase is weak and permits
opportunities for theft and significant losses.




10 U.S. Government Accountability Office, Standards for Internal Control in the Federal Government, GAO/AIMD-00.21.3.1,
November 1999.
11   GAO, Standards for Internal Control in the Federal Government.
12   DOD Financial Management Regulation, Volume 5, Chapter 21, December 2010.



SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                                  Page 7
         Table 1 - SIGAR Summary of Reported Potential Fuel Theft Incidents

                                                   Quantity Ordered         Quantity Delivered           Variance
                     ANA Location
                                                       (Liters)                  (Liters)                 (Liters)

         Kabul (PEC Power plant)                  500,000                 196,800                    303,200

         Paktiya (Gardez Power Plant)             299,535                 29,500                     270,035

         Camp Leatherneck (Shorabak)              160,000                 144,440                    15,560
         Source: SIGAR Review of emails reporting fuel theft and related issues provided by Task Force 2010.


Weaknesses Exist in U.S. Processes to Purchase, Deliver, and Pay for Fuel

Kabul Regional Contracting Center Limited Competition and Did Not Independently Verify Fuel Prices, Risking Increased Cost to
the U.S. Government
The Kabul Regional Contracting Center established blanket purchase agreements with 10 vendors but, as of
October 2012, only 2 were in use, resulting in limited competition. These agreements limit the ability of the
U.S. government to compel a vendor to fill a fuel order, as vendors are not obligated to respond to a call placed
against it. The Federal Acquisition Regulation states that blanket purchase agreements should be established
with more than one supplier to provide “maximum practicable competition.”13 Furthermore, competition
provisions for blanket purchase agreements require that ordering officers rotate purchases among vendors
that provide the same supplies/services at virtually the same prices. Of the two vendors currently in use, one
solely provides aviation fuel and the other solely provides petroleum-based fuel, such as diesel. This has left
each vendor with de facto monopolies for aviation and ground fuel, significantly raising the possibility that the
best price for either type of fuel will not be received. 14
In addition, the Kabul Regional Contracting Center approved vendors’ prices for liters of fuel based on
unverified cost justifications. The Federal Acquisition Regulation states that the contracting officer that
entered into the blanket purchase agreement shall maintain awareness of changes in market conditions,
sources of supply and other pertinent factors. 15 In the case of ANA fuel, vendors submit a price justification
spreadsheet to the contracting center on a monthly basis. This spreadsheet details the various costs
comprising the final fuel price. The contracting center provided us with an example of a vendor-reported
justification, showing what the vendor charged for Afghan Oil Authority fees, customs duties, transportation
costs and other fees (see figure 3, with price per liter converted to gallons). These fees are rolled up into a
single, price per liter and submitted on a monthly basis to the contracting center. The contracting center only
began requiring price justifications in January 2012. In addition, we found that the center relies on the vendor-
provided price justification with little or no independent verification of its accuracy or comparison with market
prices. For example, according to a contracting official, he “misleads” the vendor into believing the contracting
center will independently verify vendors’ prices with Platts Energy News—a source for energy information.
However, the contracting center does not, in fact, have access to Platts Energy News.




13   Federal Acquisition Regulation, Subpart 13.303-2(c)(1).
14In November 2012, CSTC-A stated that one of the two BPAs was closed and BPAs were issued to seven additional
vendors.
15   Federal Acquisition Regulation, Subpart 13.303-6.



SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                                        Page 8
Figure 3 - Example of One Vendor’s Average Fuel Price for April 2012




Source: SIGAR Analysis (difference due to rounding error)
*All costs are vendor reported.

CSTC-A’s Fuel Orders Are Not Based on Fuel Consumption Data and Do Not Follow Ministry of Defense Procedure
As established by MOD Decree 4.6, the ANA requests fuel using MOD Form 14—a materiel request form used
to order fuel. To justify the requested fuel, this form is to be accompanied by a MOD Form 32, which
documents fuel consumption. These forms are submitted by ANA units to the Afghan MMC-A for approval after
verifying the orders do not exceed approved fuel allocations. The Afghan MMC-A is also supposed to receive
and approve orders for fuel from power plants.
However, in our sample of 150 fuel orders, we found that 80 orders did not include the required MOD Form 14
and 42 of the remaining 70 forms lacked the required MMC-A signatures in violation of procedures established
by the MOD decree. According to one fuel ordering officer, MOD took too long to process fuel requests, leading
CSTC-A to exclude the Afghan MMC-A from the process. CSTC-A issued all fuel to power plants without MOD
Forms 14 or MMC-A authorization. Such a bypass of Afghan authority may risk duplicate fuel orders as CSTC-A
pushes fuel to power plants based on contractor-reported re-order points. Figure 4 illustrates the appropriate
fuel ordering process as well as the actual process that was used in violation of the MOD decree.




SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                               Page 9
Figure 4 - ANA Fuel Ordering Process




Source: SIGAR Analysis Based on CSTC-A and MOD documentation.

With regard to fuel consumption, 120 of the 150 fuel orders did not have the required MOD Form 32
documenting fuel consumption. Five of the remaining 30 fuel orders that did contain the form lacked specific
consumption data. In total, CSTC-A authorized over $11.1 million of the $13.9 million in fuel orders in our
sample that were not supported by consumption data and were not approved by the Afghan government.
As a result of SIGAR’s findings over the course of our audit, CSTC-A issued fragmentary orders16 to strengthen
adherence to the fuel ordering process established by MOD Decree 4.6 and improve controls. Specifically, in
May 2012, CSTC-A issued a fragmentary order to, among other things, require MOD Forms 14 and 32 to be
submitted to CSTC-A monthly to support fuel orders submitted for payment. CSTC-A issued a follow-on
fragmentary order in September 2012 that added language to reinforce MOD Decree 4.6 requirements and
stipulate that units will not be eligible to receive fuel and the MOD Forms 14 will be rejected if MOD Forms 32
(documenting consumption) is not on file.

CSTC-A Does Not Verify Quantity or Quality of Delivered Fuel
MOD Decree 4.6 requires ANA units to prepare MOD forms to document receipt and distribution of fuel, but
CSTC-A is not required to use these MOD forms (8 and 9, used to document fuel quantity delivered and
distributed) when ordering or acknowledging receipt of the vendor-reported fuel quantity and quality delivered.
Also, SIGAR’s test found 88 instances where invoices were paid without proof of quality on the delivery ticket.
Blanket purchase agreements also require quantity and quality controls, including requirements that the
contractor provide lab reports of fuel quality for all shipments on at least a monthly basis as well as to further
certify that delivered fuel is free of contaminants. A current fuel ordering officer stated that required lab
reports are not realistic in Afghanistan due to the absence of labs. In our sample of 150 fuel orders, we found
that CSTC-A could not provide the required MOD forms documenting receipt of vendor-reported fuel for 99
orders (66 percent).



16A fragmentary order is an abbreviated form of an operation order (verbal, written, or digital) usually issued on a day-to-
day basis that eliminates the need for restating information contained in the basic operation order. It is issued after an
operation order to change or modify that order.



SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                                       Page 10
CSTC-A Exceeded Agreement-Imposed Fuel Ordering Limits and Lacks Separation of Duties in Fuel Ordering and Payment
The agreements established by the Kabul Regional Contracting Center, which were in effect during our audit,
authorize CSTC-A’s fuel ordering officer to place orders up to $500,000 and require that any orders exceeding
that figure be placed instead by the contracting officer. However, we found 39 paid fuel orders in the
checkbook that were placed by CSTC-A’s fuel ordering officers that exceeded $500,000, including one for
$768,000. Seven of these 39 orders occurred on a single day in January 2012. CSTC-A’s fuel ordering officer
did not provide us with documentation to justify exceeding the $500,000 limit. As a result, the fuel ordering
officer placed unauthorized fuel purchases and committed U.S. funds above the limit authorized in the
agreements, potentially exposing those funds to fraud, waste, and abuse.
We also found that a CSTC-A fuel ordering officer was responsible for fuel ordering, reporting, and payment
processes. Internal control standards state that no one person should control all key aspects of a transaction
or event to reduce the risk of error or fraud. Instead, responsibilities for authorizing, processing, recording, and
reviewing transactions, as well as handling related assets, should be separated.17 However, we found 147
instances where the same fuel ordering officer placed a fuel order with a vendor, updated the checkbook, and
acknowledged fuel quality and quantity delivered to initiate vendor payment. A payment system based so
heavily on a single individual leaves the U.S. government open to increased risk of fraud, waste, and abuse.


CSTC-A’S ESTIMATES FOR FUNDING ARE BASED ON UNSUPPORTED DATA AND
POTENTIALLY OVERSTATED

The approximately $2.8 billion that CSTC-A estimates will be necessary to fund purchases of ANA POL between
fiscal years 2014 and 2018 are based on questionable calculations. Specifically, funding estimates were not
based on known fuel consumption. Instead, CSTC-A’s funding estimates were based on fuel orders in which
SIGAR found significant control issues, including inconsistent use of MOD delivery forms, consumption forms
and approvals by MMC-A. CSTC-A, in April 2012, told SIGAR that 254 ANA locations received fuel, but could not
provide us with a list of these locations until July 2012, when it offered a list of 188 sites. 18 CSTC-A did not
have consumption data or reliable information on ANA vehicles and generators, but nonetheless increased its
estimate of the funding needed to fulfill these fuel requirements from fiscal year 2012 to fiscal year 2018.
CSTC-A’s method for estimating future fuel requirements and the funding required to fulfill these requirements
is not clear to us. According to a CSTC-A official, a single month’s fuel ordering data from March 2012 was
used to calculate fuel requirements for all of fiscal year 2013. The fiscal year 2013 budget request then
formed the basis for CSTC-A’s fiscal years 2014 through 2018 funding estimates. In its response to our
September 2012 interim report, CSTC-A stated that fiscal year 2012 expenditures are anticipated to be
approximately $480 million for ANA POL, based on fuel orders placed from August 2011 through July 2012,
rather than on the single month of March 2012. However, CSTC-A’s supporting documentation does not
support this statement. The 12 months of fuel orders CSTC-A cites totaled $493.5 million for all of the ANSF
and $338.3 million for ANA, raising concerns about the basis for CSTC-A’s $480 million estimate.
CSTC-A’s problems in estimating fuel requirements are evident in the fact that 9 months into fiscal year 2012,
CSTC-A was still using fiscal year 2011 funds. SIGAR estimates that by January 2013, 3 months into fiscal year
2013, CSTC-A will have more than $266 million available in fiscal year 2012 funds for fiscal year 13 fuel
orders. This raises the question as to whether CSTC-A requires its full fiscal year 2013 funding request.



17   GAO, Standards for Internal Control in the Federal Government.
18 In October 2012, the CSTC-A fuel ordering officer told us that the reduction of ANA fuel locations receiving direct
deliveries from vendors was ongoing but noted that direct deliveries were still being made to approximately 240 ANA fuel
locations.



SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                                   Page 11
DESPITE CONCERNS ABOUT ANA’S CAPACITY TO PURCHASE FUEL, CSTC-A
INTENDS TO PROVIDE THE AFGHAN GOVERNMENT WITH $1 BILLION IN DIRECT
FUNDING

SIGAR has raised concerns about CSTC-A’s fuel accountability, and the Army Audit Agency has reported
concerns about controls over CSTC-A’s direct contributions to the Afghan government. Assessments of MOD
and ANA, through the Capability Milestone ratings system, suggest that MOD is not ready to assume sole
responsibility for POL, especially with concerns about the accountability and transparency of the use of prior
direct contributions to the Afghan government. Nevertheless, CSTC-A is proceeding with plans to directly
provide at least $1 billion to the Afghan government between early 2013 and fiscal year 2018 for MOD to
purchase its own fuel. 19
In 2012, the Army Audit Agency observed that direct contributions are inherently high risk due in large part to
procedural and cultural difference between the U.S. and Afghan governments. As noted above, we also raised
concerns about fuel accountability and the feasibility of increasing direct contributions in an interim report and
two congressional testimonies on the subject in September 2012. As noted previously, CSTC-A plans to
provide direct contributions of one-third of its ANA POL budget to the Afghan government, which―according to
estimates through fiscal year 2018―total more than $1 billion over the next 6 years.
In addition to external agency reports, CSTC-A’s Capability Milestone rating system, which CSTC-A uses to
assess the abilities and capacity of MOD on a quarterly basis, suggested weaknesses in MOD and ANA logistics
capacity. Further, CSTC-A’s standard operating procedures state that it must conduct a risk assessment prior
to direct contributions and that this assessment must include a “deliberate examination of the risk to overall
capacity development, the security mission, and the stewardship of public resources.” In April 2011, CSTC-A
reported that MOD logistics, which includes fuel management and the MMC-A, still requires “some coalition
assistance.” However, as of February 2012, DOD assessed a national-level logistics entity as still requiring
some coalition assistance, as well as giving MOD accountability, visibility, and department support for the
Afghan Air Force 20 and ground force command operations the lowest rating of “the department exists but
cannot accomplish its mission.” This raises questions about whether MOD can adequately serve as a steward
of public resources, as is necessary according to CSTC-A’s own standard operating procedures for direct
contributions. As a result, CSTC-A may contradict its own standard operating procedures—which require
recipients to demonstrate appropriate stewardship of public resources—by beginning to provide funds directly
to the Afghan government. This direct funding will be in spite of its own assessments and those of the Army
Audit Agency, which question the readiness and controls, respectively, of MOD.




19 Direct contributions became part of the Afghanistan Security Forces Fund after a statement on May 12, 2010, by
Presidents Obama and Karzai reaffirmed the need to further direct U.S. assistance through the Afghan government.
Pursuant to this effort, DOD developed a program to provide funding directly to the ministries. Based on a DOD report on
progress toward security and stability in Afghanistan, DOD approved operating guidelines for providing Afghanistan Security
Forces Funds directly to the Afghanistan security ministries through the Ministry of Finance.
20According to CSTC-A, the total POL funding requirement for the Afghan Air Force will be over $457 million for fiscal years
2014 to 2018.



SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                                     Page 12
CONCLUSION

Successful management of POL, particularly fuel for vehicles, generators, and power plants, is critical to
ensuring effective logistics capability for ANA. However, CSTC-A’s current process for managing the supply of
POL to ANA lacks the necessary accountability and leaves U.S. funds vulnerable to fraud, waste, and abuse.
CSTC-A’s problems successfully managing ANA POL include, among other things, failing to keep complete and
accurate records, not following up on potential theft or tracking loss of fuel due to spillage or mishap, failing to
follow established fuel ordering procedures, not verifying fuel deliveries, and limiting competition among
vendors thereby potentially exposing the U.S. government to increased fuel costs. Moreover, by basing its
future years’ funding estimates on prior fuel ordering activities rather than a systematic analysis of fuel
requirements for ANA vehicles, generators, and power plants, CSTC-A risks overstating the amount of funding
that will be necessary in the future. Despite these problems, CSTC-A continues to press forward with
substantially increasing annual ANA POL budgets without validating fuel needs and plans to provide billions of
dollars over the next several years directly to the Afghan government for the purchase of ANA POL. Given that
CSTC-A’s current process for ordering, delivering, and paying for fuel lacks the necessary accountability to
protect U.S. funds from fraud, waste, and abuse, we are not confident that an Afghan-managed process would
lead to greater accountability—particularly given the extensive problems with Afghan logistics capacity we and
others have repeatedly identified.


RECOMMENDATIONS

To improve accountability of U.S. funds and purchased fuel, we recommend that the Commanding General,
NATO Training Missions-Afghanistan/CSTC-A:
    1. Comply with existing DOD regulations to retain original or electronic records in order to prevent
       destroyed or unavailable records.
    2. Develop a process to identify, investigate, and resolve differences between quantities of fuel ordered
       and quantities of fuel delivered and any allegations of fuel theft.
    3. In coordination with plans being developed for the Afghan government, immediately develop an action
       plan to improve the fuel process from price approval, ordering, delivery, receipt, and payment of fuel
       to better account for U.S. funds and to assure fuel is appropriately purchased, received, and
       consumed by ANA forces. Such a plan should include, but not be limited to:
             a.   Improving methods for ensuring the price paid for fuel is commensurate with market
                  conditions and for verifying that costs charged to the U.S. government for such items as
                  Afghan government fees are allowable;
             b. Ensuring that all fuel orders are authorized by the Afghan MMC-A and the required MOD forms
                32 and 14 are maintained and used to support consumption and fuel requirements;

             c.   Ensuring that CSTC-A rejects all fuel orders not authorized by the Afghan MMC-A;
             d. Developing controls to assure that fuel ordering officers cannot exceed fuel ordering limits
                established by blanket purchase agreements without evidence of contracting officer approval;

             e.   Developing controls to assure the use of MOD Forms 8 and 9 to verify the quantity and quality
                  of vendor-reported fuel delivered to ANA;
             f.   Developing safeguards to ensure CSTC-A fuel ordering responsibilities are separated and no
                  one person has control over ordering, acknowledging receipt, and authorizing payment;




SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                             Page 13
             g.   Implementing standard operating procedures for reconciling fuel orders with receipts,
                  invoices, and payments made by Defense Finance and Accounting Services; and
             h. Retaining the appropriate supporting documentation for all fuel orders.
To more realistically estimate its budget requests and future years’ funding estimates for fuel, we recommend
that the Commanding General, NATO Training Missions-Afghanistan/CSTC-A:
    4. Establish the fiscal year 2013 funding level at the fiscal year 2012 ANA funding level of $306 million
       and use along with the remaining available fiscal year 2012 appropriated ANA fuel funds to meet the
       ANA fuel requirement for fiscal year 2013.
    5. Systematically analyze ANA fuel consumption in order to reformulate its funding estimates for fiscal
       years 2014 to 2018 based on validated ANA fuel requirements rather than prior years’ fuel ordering
       activities.
To assure proper stewardship and transparency of U.S. funds and fuel purchases in the future, we recommend
that the Commanding General, NATO Training Missions-Afghanistan/CSTC-A:
    6. Revise CSTC-A’s strategy for providing direct contributions to the Afghan government for future fuel
       purchases until MOD demonstrates transparency and accountability without coalition assistance. For
       example, CSTC-A could begin with a small amount of direct contributions to purchase fuel for specific
       units and/or power plants and then adjust upwards based upon assessments of MOD capacity and
       accountability of fuel ordered, delivered, and consumed.




AGENCY COMMENTS

CSTC-A and U.S. Army Central generally concurred with all six recommendations and provided written
comments on a draft of this report, which are reproduced in appendices III and IV. NTM-A/CSTC-A stated that it
concurred with our recommendations and described actions it has taken or will take to address them. In
particular, CSTC-A noted that it shares our concerns for MOD transparency and accountability and will initiate
procedures, including incremental funding and monthly audits, to minimize corruption and provide more
oversight as it transitions fuel funding and responsibility to MOD.
However, some of CSTC-A’s comments either did not reflect the intent of our recommendation or made
assertions with which we disagree or cannot verify before issuing this report. For example, we disagree that
using the vendor delivery ticket alone verifies that quantity ordered equals quantity delivered. The vendor fills
out the delivery ticket and does not include supporting documentation from a meter reading, scale, or other
proof of the actual fuel quantity delivered. CSTC--A further states that fuel is off-loaded after the recipient
verifies that the fuel passed quality tests, however, we found numerous instances of no evidence that quality
tests were performed for the selected 150 paid fuel orders that we tested.
Furthermore, CSTC-A concurred with our recommendation to use the fiscal year 2012 ANA budget, but only as
a starting baseline—along with other factors—to establish the fiscal year 2013 budget. However, as noted in
our report, CSTC-A estimated fiscal year 2013 ANA expenditures at $480 million without providing
documentation to support that amount. Further, more than $266 million in fiscal year 2012 funds will still be
available to use along with the recommended $306 million for fiscal year 2013. Therefore, we continue to
recommend that the fiscal year 2013 budget should not be increased beyond that of fiscal year 2012
Our specific responses to CSTC-A’s and U.S. Army Central’s comments and actions are also included in
appendices III and IV.




SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                           Page 14
APPENDIX I - SCOPE AND METHODOLOGY

In February 2012, the Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR) initiated
an audit of the Afghan National Army’s (ANA) logistics capability regarding petroleum, oil, and lubricants (POL).
SIGAR’s overall objective was to assess U.S. efforts to develop ANA’s capability to acquire, distribute, and
account for POL supplies to its forces. This report assesses (1) the internal controls in place to provide
accountability for ANA POL and to prevent fraud, waste, and abuse; (2) the extent to which the NATO Training
Missions-Afghanistan/Combined Security Transition Command-Afghanistan’s (CSTC-A) funding requests for
ANA POL are based on accurate requirements data; and (3) CSTC-A’s efforts to provide direct contributions to
the Afghan government. Although CSTC-A recorded fuel orders in a checkbook beginning in 2009, the
checkbook did not contain complete information and source documentation was not available for orders
placed between March 2010 and February 2011. As a result, we limited the scope of our audit to evaluate the
internal controls in place to account for POL to paid ANA fuel orders placed for the 13-month period from
March 2011 to March 2012.
To assess compliance with MOD guidance and evaluate the sufficiency of internal controls, we reviewed MOD
policies and procedures and related Department of Defense (DOD) guidance including the use of required
MOD and DOD forms and other documentation to determine if ANA is following established POL guidance. We
also analyzed CSTC-A’s ANA POL budgetary and financial data and summarized quantities and resources
needed and available. We interviewed CSTC-A, Kabul Regional Contracting Center, and Task Force 2010
officials and CSTC-A advisors to obtain an understanding MOD/ANA logistics. We analyzed the processes and
controls in place and reporting/reconciliation processes, including resolution of variances. We performed data
mining techniques on CSTC-A’s checkbook and our audit population of 2,922 paid fuel orders to identify trends
and irregularities, and followed up to address issues with CSTC-A. We considered Defense Logistics Agency,
Army Audit Agency, Task Force 2010 reports to determine the level of risk associated with ANA POL. We also
reconciled fuel orders with DFAS payments and summarized fuel theft reports received by Task Force 2010 to
assess the sufficiency of CSTC-A’s actions taken on the reports.
As part of evaluating the sufficiency of internal controls in place to account for POL, we randomly selected a
sample from CSTC-A’s checkbook of 150 paid fuel orders from a population of 2,922 paid fuel orders placed
during the period from March 2011 through March 2012. We calculated our sample size at a 95-percent
confidence level with a 5-percent tolerable deviation rate from a population of 2,922 using Interactive Data
Extraction and Analysis sample generation software. In calculating this sample, we assumed a 2-percent
expected deviation rate. The sample represented a total volume of approximately 8.3 million liters with a total
value of approximately $13.9 million. We requested and reviewed MOD forms, invoices, Defense Finance and
Accounting Services computer-processed payment data, Material Inspection and Receiving Reports (DD 250),
vendor delivery tickets, and monthly approved fuel rates for the 150 sample items. Although we exceeded the
maximum tolerable deviation errors, we completed the test work of the sample items to obtain a more
accurate picture of ANA POL operations throughout the country for the 13-month audit period.
To determine the funding levels needed to meet ANA POL requirements, we examined DOD’s fiscal year 2012
and 2013 budget and the supporting documentation used to estimate annual funding levels.
To determine the status of the CSTC-A efforts to develop ANA’s capacity to manage POL direct contributions,
we (i) analyzed CSTC-A reported issues and DOD Inspector General audit reports and (ii) interviewed
logistics/POL officials at CSTC-A, Task Force 2010, and Defense Logistics Agency to obtain the status of
identified challenges and issues to develop a capable and sustainable ANA POL processes. We reviewed and
analyzed MOD logistics and ANA POL policies and procedures, blanket purchase agreements, and CSTC-A and
Task Force 2010 POL presentation slides.
To assess the reliability of our population of paid ANA fuel orders, we (i) reviewed the fuel orders in CSTC-A’s
fuel ordering office’s and Kabul Regional Contracting Center’s checkbooks and the Defense Finance and
Accounting Services’ computer-generated payment data, (ii) performed data mining procedures, and (iii) traced
fuel orders to source documents. Subsequent to our reconciliations and verification of revisions made to the
checkbook during the period from March 2011 through March 2012, we determined that the audit population

SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                          Page 15
was sufficiently reliable and the needed documentation was available, given the research questions and
intended use of the data. We also assessed internal controls over the ANA POL processes and considered
allegations of fraud through review of CSTC-A briefings and documentation of fuel contracts, orders, and
payments. The results of our reconciliation and assessments are included in the body of this report.
We conducted work in Kabul, Afghanistan from February 2012 to January 2013 in accordance with generally
accepted government auditing standards. These standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. The audit was conducted by the Office of Special Inspector General
for Afghanistan Reconstruction under the authority of Public Law No. 110‐181, as amended, the Inspector
General Act of 1978, and the Inspector General Reform Act of 2008.




SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                        Page 16
APPENDIX II - ADDITIONAL AUDIT INFORMATION

  Table I - Results of Internal Control Tests
                         Description                         Number               Liters          Amount

  Audit Population                                            2,922         139,471,572          $237,966,042

  Sample Size                                                   150               8,287,539       $13,878,966

                                  Test Results – Missing Forms and Exceptions:

  Missing Forms (38 percent of sample documents):

  MOD Form 32                                                   120               6,422,718       $10,433,764

  MOD Form 14                                                     80              2,838,083        $4,704,471

  MOD Forms 8/9                                                   99              4,077,400        $6,996,323

  Vendor Delivery Tickets                                         32              1,424,074        $2,540,860

  Vendor Invoice                                                   2                200,000         $306,000

  DOD Form DD250                                                   3                260,000         $399,600

  Vendor Price List                                               81              2,871,745        $4,769,596

  Blanket Purchase Agreement Payment Call                         13                278,051         $464,372

  Exceptions Noted (35 percent of sample document):

  MOD Form 14/fuel order not processed through depots             24              3,751,416        $5,969,271

  Fuel order not signed by MMC-A                                  42              4,397,143        $7,078,603

  Delivery Ticket not signed by ANA receiver                       3                 65,092         $131,230

  Delivery Ticket not signed by driver                          106               6,456,786       $10,533,498

  No proof of vendor quality                                      88              4,674,170        $7,577,358

  ANA did not document fuel quantity                              51              4,273,178        $6,798,993

  ANA did not document fuel quality                               51              4,273,178        $6,798,993

  Vendor quality not acknowledged                               140               6,881,248       $11,389,843

  No separation for fuel duties                                 147               8,065,578       $13,395,715

  Invoice and approved fuel rate did not agree                    15                       n/a       $38,402

  Fuel order not based on actual consumption                       5                456,943         $751,401

  Fuel not reconciled to actual inventory                          7                509,727         $848,607

  Source: SIGAR analysis of detailed audit test results.




SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability                             Page 17
         Figure I - Timeline of ANA Fuel Documentation and Key Audit Events




SIGAR Audit 13-4/Afghan National Army Petroleum, Oil, and Lubricants Capability   Page 18
 Table II - Summary of Annual Afghanistan Security Forces Fund ANA Fuel Budget and Financial Data for
           Fiscal Years 2007-2018 (in millions)
     Fiscal Year             Enacted/Requesteda                   Obligationsb                    Disbursementsc

                                      $12.2                          $107.0                          $102.1
 2007
                                      $53.1                          $115.9                          $105.8
 2008
                                    $174.8                           $127.3                           $42.3
 2009
                                    $293.3                           $252.6                          $246.1
 2010
                                    $190.0                           $274.1                          $216.5
 2011
                                    $428.8                              $ -                             $ -
 2012
                                    $343.1                              $ -                             $ -
 2013
                                    $574.9                              $ -                             $ -
 2014
                                    $555.0                              $ -                             $ -
 2015
                                    $555.0                              $ -                             $ -
 2016
                                    $555.0                              $ -                             $ -
 2017
                                    $555.0                              $ -                             $ -
 2018
 Source: CSTC-A Finance Office through May 2012 and Afghanistan Security Forces Fund fiscal year 2007 through 2013
 budget justifications.

 Notes:
 aAfghanistanSecurity Forces Fund funding level estimated to meet annual ANA POL requirements; fiscal years 2007
 through 2012 amounts were enacted in annual DOD appropriations.
 bAmount   actually obligated to meet ANA fuel requirement.

 cPayment   of obligated funds for submitted invoices for fuel amounts purchased and delivered.




SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability                                  Page 19
APPENDIX III - COMMENTS FROM THE COMBINED SECURITY TRANSITION
COMMAND-AFGHANISTAN




SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability   Page 20
SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability   Page 21
SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability   Page 22
SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability   Page 23
SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability   Page 24
SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability   Page 25
SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability   Page 26
                              SIGAR’s Response to CSTC-A’s January 2, 2013 Memorandum
  1. We agree that the MOD forms are the property of the Afghan government and should be maintained by
     the MOD. However, we continue to believe that the MOD forms can act as tools for CSTC-A to
     independently review and verify fuel orders, deliveries, and consumption to improve accountability and
     controls.
  2. We disagree with CSTC-A’s assertion that the vendor delivery ticket alone verifies that quantity ordered
     equals quantity delivered. The vendor fills out the delivery ticket and does not include supporting
     documentation from a meter reading, scale, or other proof of the actual fuel quantity delivered. Further,
     CSTC-A has not had officials who could independently confirm delivery at all of the reported locations.
     CSTC-A further states that, upon verification by the recipient that the fuel passes quality tests, the fuel is
     off-loaded. However, we found numerous instances of no evidence that quality tests were performed for
     the selected 150 paid fuel orders that we tested. During our audit, CSTC-A also reported to us that fuel
     testing kits were too advanced for Afghanistan, and more basic kits would need to be ordered.
     Additionally, CSTC-A stated that discrepancy issues are immediately addressed to the COR and that
     CSTC-A will report, through its Inspector General, alleged or suspected fuel theft incidents to three
     organizations dedicated to fight Afghan vendor corruption. However, we were not provided any evidence
     of such discrepancy issues or referrals.
 3a. We agree that the contracting officer at CENTCOM Joint Theater Support Contracting Command is
     responsible for negotiating and approving fuel prices. However, as noted in our report, we did not
     receive evidence of review and approval of fuel prices.
 3b. To clarify the intent of our recommendation, we have updated this to state “maintained and used to
     support consumption and fuel requirements.” CSTC-A stated that since September 2012, coalition
     advisors at MMC-A ensure that MOD forms accompany each order and that all orders lacking supporting
     documentation are rejected. CSTC-A told us, however, that a single Afghan contractor at MMC-A
     reviewed ANA fuel orders prior to sending forward to CSTC-A. We did not receive information on how the
     contractor verifies MMC-A approval of each fuel request or the level of CSTC-A oversight of contractor.
 3c. CSTC-A stated that coalition advisors at MMC-A ensure that MOD forms accompany each order and are
     reviewed against authorized fuel allocations. As noted, CSTC-A informed us that a single Afghan
     contractor was resident at MMC-A to review fuel orders prior to forwarding to CSTC-A.
 3d. CSTC-A stated that it undertakes appropriate administrative checks to ensure that fuel orders do not
     exceed BPA limits. We noted that the specific administrative actions need to be clearly identified to
     ensure that fuel orders placed by fuel ordering officers do not exceed BPA limits without evidence of the
     required contracting officer approval.
 3e. CSTC-A stated that its use of delivery tickets conforms to Federal Acquisition Regulation Subpart
     32.905. However, our review of this clause found no language related to vendor-reported delivery
     tickets, including guidance as to whether such tickets are appropriate support for payment of an invoice.
     Specifically, the clause states that supporting documentation for authorizing payment should include
     quantities of supplies received and accepted, the date that a designated Government official accepted
     the supplies or approved the progress payment, and the signature of this designated official. However,
     as noted in the report findings, we found multiple instances where delivery tickets were not signed by
     the ANA and the vendor’s driver and the delivery tickets generally lacked proof of fuel quality. The
     delivery tickets reviewed found no notation of a “designated Government official” or that designated
     officials accepted the fuel or other independent verification of vendor-reported fuel quality and quantity.
     CSTC-A commented that the use of MOD Forms 8 and 9 is not the “optimal solution.” We disagree, as
     the MOD Decree requires these forms, which can help document fuel quantity. Such a step can help
     CSTC-A improve accountability and develop capacity within the ANA and MOD.




SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability                          Page 27
  3f. CSTC-A stated that receipt of fuel delivery is performed by personnel assigned to MMC-A and verified by
      CSTC-A’s contractors, and that this verification is done under the supervision of coalition advisors.
      However, CSTC-A officials told us that only one Afghan contractor works at MMC-A, and this contract
      began in August 2011. As a result, the level of verification between 2007 and August 2011 is unclear.
      Due to the apparent reliance on this individual, CSTC-A should determine the proper separation of duties
      to ensure orders from CSTC-A’s contractor at MMC-A are accurate.
  3g. CSTC-A stated that “order reconciliation is performed on a monthly basis upon receipt of monthly
      invoices from vendors…and performed by the COR.” However, CSTC-A did not regularly reconcile orders
      and payments until June 2012—5 years into funding of ANA POL. We did not verify the continued
      reconciliations by fuel ordering officers (contracting officer representative) because any subsequent
      monthly reconciliations took place after our audit period.
  4.    CSTC-A generally concurred with our recommendation to use the fiscal year 2012 ANA budget, but only
       as a starting baseline to establish the fiscal year 2013 budget. CSTC-A added that other factors must be
       considered to develop the fiscal year 2013 budget. However, as noted in our report, CSTC-A estimated
       fiscal year 2013 ANA expenditures at $480 million without providing documentation to support that
       amount. Further, more than $266 million in fiscal year 2012 funds will still be available to use along
       with the recommended $306 million for fiscal year 2013. Therefore, we continue to recommend that
       the fiscal year 2013 budget should not be increased beyond that of fiscal year 2012.
  5. CSTC-A stated that its advisors have directed MOD to implement a fuel allocations requirement for all
     MOD units that is justifiable and meets operational requirements, but added that MOD leadership was
     not able to provide adequate fuel allocation data and detailed some flaws with what was reported. In
     November 2012, we saw a draft model of the allocation procedures, originally expected to be rolled out
     in December 2012. We did not assess the procedures because they had not been finalized during the
     course of our fieldwork. We reiterate the need to validate any funding levels estimated to meet ANA fuel
     requirements.
  6. CSTC-A stated that it shares our concerns with fuel transparency and accountability and noted it will
     begin to transfer one-third of all fuel funding and responsibilities to the MOD in 2013 and the remaining
     two-thirds in 2014 based upon demonstrated success. CSTC-A also commented that it will incrementally
     disburse funds and conduct monthly audits. We believe that, at a minimum, such audits should include
     the verification of vendor fuel orders and vendor-reported deliveries to MOD forms and reconciliation of
     (a) contributions to MOD payments and remaining balances; (b) fuel orders to vendor deliveries and
     MoD payments; and (c) vendor deliveries to ANA distribution, consumption, losses, and remaining
     inventory. Further, CSTC-A should assure that the sources of information and systems are reliable.
       Lastly, CSTC-A noted that MOD will assume control of diesel fuel for two of the seven ANA Corps but did
       not detail which two these will be. CSTC-A appears to limit its definition of “responsibility” and “control”
       to be areas other than financing, which CSTC-A assumes it will support until at least 2018. We believe
       that full and complete Afghan “control” and “responsibility” will not exist until the Afghan government
       can generate its own financing to meet its security mission.




SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability                           Page 28
APPENDIX IV - COMMENTS FROM U.S. ARMY CENTRAL




SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability   Page 29
                       SIGAR’s Response to U.S. Army Central’s December 27, 2012 Memorandum:
  1. U.S. Army Central commented that CSTC-A may have “no other alternative” than to base budget requests
     on fuel orders because the needed consumption data may not exist. We disagree. Reliance on fuel
     orders without factoring battle losses and theft, in an environment riddled with vulnerabilities as detailed
     in this report would expose U.S. dollars to a high risk of fraud, waste, and abuse. We believe that CSTC-A
     must take significant steps to gain insight into actual consumption and losses to assure proper
     stewardship of U.S. taxpayer dollars.




SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability                        Page 30
APPENDIX V - ACKNOWLEDGMENTS

Nicolas “Nick” Torres, Senior Audit Manager
Steven Haughton, Auditor-in-Charge
Christina Andersson, Senior Analyst
Dinusha Jayasinghe, Senior Auditor


The following staff provided analytical support:
Greg Paige, Forensic Auditor
Mia Bonarski, Communication Analyst/Graphics




SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability   Page 31
                             This audit report was conducted under project
                                           code SIGAR-054A.




SIGAR Audit 13-4 / Afghan National Army Petroleum, Oil, and Lubricants Capability   Page 32
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
